<html>
<title> - A ROADMAP FOR SECURITY? EXAMINING THE SCIENCE AND TECHNOLOGY DIRECTORATE'S STRATEGIC PLAN</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                   A ROADMAP FOR SECURITY? EXAMINING 
                       THE SCIENCE AND TECHNOLOGY 
                      DIRECTORATE'S STRATEGIC PLAN 

=======================================================================

                                HEARING

                               before the

                        SUBCOMMITTEE ON EMERGING
                      THREATS, CYBERSECURITY, AND
                         SCIENCE AND TECHNOLOGY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 27, 2007

                               __________

                           Serial No. 110-53

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
            [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

48-927 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 























                     COMMITTEE ON HOMELAND SECURITY


               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California,         PETER T. KING, New York
EDWARD J. MARKEY, Massachusetts      LAMAR SMITH, Texas
NORMAN D. DICKS, Washington          CHRISTOPHER SHAYS, Connecticut
JANE HARMAN, California              MARK E. SOUDER, Indiana
PETER A. DeFAZIO, Oregon             TOM DAVIS, Virginia
NITA M. LOWEY, New York              DANIEL E. LUNGREN, California
ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             BOBBY JINDAL, Louisiana
ZOE LOFGREN, California              DAVID G. REICHERT, Washington
SHEILA JACKSON LEE, Texas            MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    CHARLES W. DENT, Pennsylvania
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
JAMES R. LANGEVIN, Rhode Island      GUS M. BILIRAKIS, Florida
HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee
CHRISTOPHER P. CARNEY, Pennsylvania
YVETTE D. CLARKE, New York
AL GREEN, Texas
ED PERLMUTTER, Colorado

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

   SUBCOMMITTEE ON EMERGING THREATS, CYBERSECURITY, AND SCIENCE AND 
                               TECHNOLOGY

               JAMES R. LANGEVIN, Rhode Island, Chairman

ZOE LOFGREN, California              MICHAEL T. McCAUL, Texas
DONNA M. CHRISTENSEN, U.S. Virgin    DANIEL E. LUNGREN, California
Islands                              GINNY BROWN-WAITE, Florida
BOB ETHERIDGE, North Carolina        MARSHA BLACKBURN, Tennessee
AL GREEN, Texas                      PETER T. KING, New York (Ex 
VACANCY                              Officio)
BENNIE G. THOMPSON, Mississippi (Ex 
Officio)

                    Jacob Olcott, Director & Counsel

        Dr. Chris Beck, Senior Advisor for Science & Technology

                       Carla Zamudio-Dolan, Clerk

       Dr. Diane Berry, Minority Senior Professional Staff Member

                                  (II)
























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable James R. Langevin, a Representative in Congress 
  From the State of Rhode Island, and Chairman, Subcommittee on 
  Emerging Threats, Cybersecurity, and Science and Technology:
  Oral Statement.................................................     1
  Prepared Statement.............................................     4
The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Ranking Member, Subcommittee on 
  Emerging Threats, Cybersecurity, and Science and Technology:
  Oral Statement.................................................     5
  Prepared Statement.............................................     6
The Honorable Donna M. Christenson, a Delegate in Congress From 
  the U.S. Virgin Islands........................................    16
The Honorable Bob Etheridge, a Representative in Congress From 
  the State of North Carolina....................................    18

                                Witness

The Honorable Jay M. Cohen, Under Secretary, Science and 
  Technology Directorate, U.S. Department of Homeland Security:
  Oral Statement.................................................     8
  Prepared Statement.............................................     9


                   A ROADMAP FOR SECURITY? EXAMINING
        THE SCIENCE AND TECHNOLOGY DIRECTORATE'S STRATEGIC PLAN

                              ----------                              


                        Wednesday, June 27, 2007

             U.S. House of Representatives,
                    Committee on Homeland Security,
           Subcommittee on Emerging Threats, Cybersecurity,
                                and Science and Technology,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:16 p.m., in 
Room 311, Cannon House Office Building, Hon. James R. Langevin 
[chairman of the subcommittee], presiding.
    Present: Representatives Langevin, Lofgren, Christensen, 
Etheridge, Green and McCaul.
    Mr. Langevin. The subcommittee will come to order.
    The subcommittee is meeting today to receive testimony on: 
A Roadmap for security? Examining the Science and Technology 
Directorate's Strategic Plan.
    Good afternoon. I want to begin by thanking Under Secretary 
Cohen for testifying at today's hearing.
    If I can, before we begin, I just want to take a quick 
minute. Before we get to today's topic, I would like to say a 
special thanks to you, Secretary Cohen, for making time to come 
recently to my home State of Rhode Island earlier this month 
for the Rhode Island Defense and Oceanography Days, the first 
annual event, as you know. The organizers, from everything I 
have heard, and the attendees were incredibly grateful for your 
participation; and I have heard from many of the people that 
were there that your speech was a real highlight of the event. 
So just let me once again add my personal thanks to you for 
being here.
    Well, let me start off the hearing by saying that, 
Secretary, you have many admirers on this committee, and myself 
included. We all want you to succeed in making the S&T 
Directorate the finest research, development, testing and 
evaluation organization in the Federal Government. As I said 
many times before, we couldn't have a better person than you in 
running that outfit right now; and we are grateful for your 
service once again.
    Let me start off by saying that a strategic plan is an 
extremely important document for any organization but 
particularly a research and development organization like 
yours. Sadly, I believe a lack of strategic planning 
contributed to the significant problems that plagued the S&T 
Directorate in previous years, certainly prior to your arrival.
    Now, although I believe, Mr. Secretary, that you are moving 
the S&T Directorate in the right direction, I am somewhat 
disappointed in the plan that we are here to discuss today 
fully. But let me say there are a few highlights that I wanted 
to just kind of point to on the positive side before we get to 
addressing the concerns that some of us have about the plan 
itself and maybe some lack of the details.
    But on the, certainly, positive side, I am happy with the 
formal and rigorous IPT process. It certainly connects the S&T 
Directorate to the consumer.
    Second point, I would like to acknowledge the strategic 
plan has goals for future investment and describing the 
percentage that budgets will be allocated. Those are important.
    And, finally, your R&D plan has work statements and budget 
numbers.
    So all of those I was certainly pleased to see.
    What I am somewhat disappointed about centers around two 
areas. First, I have to say this isn't quite the strategic plan 
that I had expected to see; and, second, the plan is plagued by 
several deficiencies.
    The Homeland Security Act of 2002 required the Department 
to produce a National Strategic Plan for Science and 
Technology. But, despite repeated calls from Congress over the 
years, the Department still hasn't released the plan. And I 
understand this doesn't completely rest just with S&T. This is 
overall the Department of Homeland Security itself that needs 
to be more involved here.
    But what we have before us today is called the S&T 
strategic plan, but it really appears to have been submitted 
merely to satisfy report language in the fiscal year 2007 
appropriations bill, and this is not the strategic plan that is 
more than 5 years overdue.
    During the consideration of the Homeland Security 
Authorization Bill, again this year many of us again urged that 
DHS finish this plan; and we included in the bill some 
additional measures for S&T to consider in developing the plan. 
Now those measures include plans to enhance the workforce, a 
methodology for prioritization and funding research and, most 
importantly, program performance measurements, in other words, 
metrics.
    Now the bipartisan coalition that worked on this measure 
believes that these are extremely important elements of a good 
strategic plan, yet the document that is before us today really 
lacks a sophisticated discussion of these topics in particular.
    So, Secretary Cohen, I am concerned about these 
deficiencies. I understand that you intend submitting a 
National Strategic Plan to the committee soon, and I certainly 
will hope that it comes in the following weeks and not months, 
and certainly not years. But, in the meantime, the plan that 
you submitted, I see it lacks much of the substance necessary 
to make it an effective strategic document. The plan before us 
might be described as a business or an organizational document, 
but it is certainly not what I was looking for in terms of a 
strategic document.
    Although you have described the organizational structure 
and roles and responsibilities of the organization, the 
document seems to lack a high-level strategy or vision for the 
S&T Directorate. The plan in several areas misses several 
critical points.
    Now, though the committee specifically requested the 
inclusion of metrics, the plan doesn't discuss the use of 
metrics to evaluate the effectiveness of R&D programs within 
S&T; and, according to the strategic plan, metrics and measures 
are still under development. Now the failure to include metrics 
raises questions about the Directorate's ability to evaluate 
its own programs for effectiveness; and, further, the plan 
doesn't describe how the Integrated Product Teams process 
connects to a larger Homeland Security R&D strategy.
    Now it doesn't explain also how IPT topics are chosen or 
how IPTs relate to the attainment of strategic rather than 
tactical goals. Nor does the plan explain the origin of future 
year budget estimates and prioritization decisions. The plan 
contains no explanation for the prioritization of different 
divisions, which makes it difficult to justify your 
5<dagger>year research and development budget.
    I am also curious as to why some divisions are valued 
higher than others. For instance, I would like to know why the 
chem/bio division receives almost 35 percent of the entire 
budget, while the Command, Control and Interoperability 
Division receives less than 10 percent. And the plan divides 
funding goals for basic research, innovation, transition and 
other spending, but there are no clear explanations of how each 
program's budget is being split to meet these percentage goals.
    And the plan fails to clarify the distribution of 
performers of S&T Directorate research. Though industry, 
government and university interactions are briefly mentioned, 
it doesn't appear from the strategic plan or the R&D plan 
whether a strategic choice has been made about who will perform 
S&T R&D.
    Now from my years of work on the Armed Services Committee, 
where you and I had the opportunity to work closely before, I 
can tell you that this plan really pales in comparison to the 
strategic plans submitted by the Department of Defense. Now DOD 
traces a clear path from concept to required capabilities, to 
goals and implementations, to possible technical solutions; and 
as I read the plan that is before us today, it doesn't really 
do that.
    Now, finally, the plan contains gaps between innovative 
capabilities and basic research activities. DHS basic research 
funding may not be fully utilized if effective policies are not 
placed to transition the technology development, and we have no 
way of assessing those policies, because they haven't been 
spelled out here.
    So though I am eager to discuss this in further detail--and 
I guess I will stop there, and I won't get into the 5-year 
research and development budget right now, but, needless to 
say, I am troubled by some of the numbers I am seeing in 
critical programs like cybersecurity.
    But these--all the things I have raised, Secretary, are, 
you know, not to detract away from the good work that is being 
done at S&T; and, in many ways, I am sure there is much more 
good that we can point to. We are in this together as a team, 
and I want to make sure that you have all the resources at your 
disposal so that the S&T and DHS is functioning at maximum 
capacity.
    I look at this as a team effort, and we want to be partners 
with you in this. So I guess tough love is what the philosophy 
is we are working with today and always. But, again, it is a 
team; and, Under Secretary, I know that the Directorate is in 
better shape now than it was even a year ago. I applaud you, 
your team for that and all the hard work and your dedication 
and your patriotism.
    I guess, you know, the points we have raised here just 
highlight that we still have a long way to go, but again look 
forward to continuing to work together. Again, I thank you for 
your time, your service, and I look forward to our continued 
work together. And I want to thank you and your staff for what 
you are doing.
    The Chair now recognizes the ranking member of the 
subcommittee, the gentleman from Texas, Mr. McCaul, for the 
purposes of an opening statement.

   Prepared Statement of the Honorable James R. Langevin, Chairman, 
  Subcommittee on Emerging Threats, Cybersecurity, and Secience, and 
                               Technology

    Good afternoon, and thank you Under Secretary Cohen for testifying 
at today's hearing.
    If I can take a quick moment before we get to today's topic. I'd 
like to say a special thanks to you for making the time to come to my 
home state earlier this month for the first annual Rhode Island Defense 
and Oceanography Day. The organizers and the attendees were so grateful 
for your participation, and I have heard from many people that your 
speech was a real highlight of the event. So let me just add my 
personal thanks to you for being there.
    You have many admirers on this Committee, and we all want you to 
succeed in making the S&T Directorate the finest research, development, 
testing and evaluation organization in the Federal government. A 
strategic plan is an extremely important document for any organization, 
but particularly a research and development organization like yours. 
Sadly, I believe a lack of strategic planning contributed to the 
significant problems that plagued the S&T Directorate in previous 
years.
    Although I believe the Under Secretary has been moving the S&T 
Directorate in the right direction, I am disappointed in the plan that 
we are here to discuss today. I am disappointed for two reasons: first, 
this is not the strategic plan I expected to see. And second, this plan 
is plagued by significant deficiencies. The Homeland Security Act of 
2002 required the Department to produce a national strategic plan for 
science and technology. Despite repeated calls from Congress over the 
years, the Department still hasn't released this plan.
    What we have before us today is called the ``S&T Strategic Plan.'' 
But this appears to have been submitted merely to satisfy report 
language in the FY07 Appropriations bill. This not the national 
strategic plan that is 5 years overdue. During consideration of the 
Homeland Security authorization bill this year, many of us again urged 
that DHS finish this plan. And we included in the bill some additional 
measures for S&T to consider in developing the plan. Those measures 
include plans to enhance the workforce; a methodology for 
prioritization and funding of research; and, most importantly, program 
performance measurements. In other words, ``metrics.'' The bipartisan 
coalition that worked on this measure believes that these are extremely 
important elements of a good strategic plan. Yet the document before us 
lacks any sophisticated discussion of these issues.
    Under Secretary Cohen, I am disappointed in these deficiencies. I 
understand that you intend on submitting the ``national strategic 
plan'' to this Committee soon--and I hope it will come in the following 
weeks--not months, and certainly not years. But, in the meantime, the 
plan you have submitted lacks much of the substance necessary to make 
it an effective strategic document. The plan before us might be 
described as a business or an organizational document. But it is 
certainly not a strategic document. Though you have described the 
organizational structure and roles and responsibilities of the 
organization, this document lacks a high-level strategy or vision for 
the S&T Directorate.
    Your plan misses several critical areas. Though the Committee 
specifically requested the inclusion of metrics, your plan does not 
discuss the use of metrics to evaluate the effectiveness of programs 
within S&T. According to the Strategic Plan, metrics and measures are 
still under development. The failure to include metrics raises 
questions about the Directorate's ability to evaluate its own programs 
for effectiveness. Further, your plan does no describe how the 
Integrated Product Teams (IPT) process connects to a larger homeland 
security R&D strategy. It does not explain how IPT topics are chosen or 
how IPTs will lead to the attainment of strategic, rather than 
tactical, goals. Nor does this plan explain the origin of future-year 
budget estimates and prioritization decisions. The plan contains no 
explanation for the prioritization of different Divisions, which makes 
it difficult to justify your ``five year research and development'' 
budget.
    I am curious why some Divisions are valued higher than others. For 
instance, I'd like to know why the chem/bio division receives almost 
35% percent of the entire budget, while the Command, Control, and 
Interoperability division receives less than 10%. Your plan divides 
funding goals for basic research, innovation, transition, and other 
spending, but there is no clear explanation of how each program's 
budget is being split to meet those percentage goals. Your plan also 
fails to clarify the distribution of performers of S&T Directorate 
research. Though industry, government, and university interactions are 
briefly mentioned, it is not apparent from the Strategic Plan or the 
R&D Plan whether a strategic choice has been made about who will 
perform S&T R&D. From my years of work on the Armed Services Committee, 
I can tell you that this plan pales in comparison to the Strategic 
Plans submitted by the Department of Defense. DOD traces a clear path 
from concept to required capabilities, to goals and limitations, to 
possible technical solutions. Yours does not.
    Finally, your plan contains gaps between innovative capabilities 
and basic research activities. DHS basic research funding may not be 
fully utilized if effective policies are not in place to transition 
them to technology development, and we have no way of assessing those 
policies because they have not been spelled out here. Though I am eager 
to discuss this in further detail, I will stop there. I will not get 
into the ``five year research and development budget'' right now, but 
needless to say I'm troubled by some of the numbers I's seeing in 
critical programs like cybersecurity.
    Under Secretary Cohen, the Directorate is in better shape now than 
it was a year ago, and I applaud you and your team for that. But this 
document should remind us all that there is still a long way to go. I 
thank you for your time and your service, and look forward to 
continuing to work with you and your staff on these issues.

    Mr. McCaul. Thank you, Mr. Chairman.
    And, Admiral, I welcome you back to the hallowed halls of 
Congress. It is a trip that some people don't like to make, but 
I am glad you are here and smiling.
    I also want to say how delighted I was to hear about your 
trip to Texas, to my home State, to Austin and the University 
of Texas A&M and to get a little bit of taste of the hill 
country with the Peach Festival in Fredericksburg. It is great 
to hear.
    War spurred the creation of most U.S. Government science 
agencies. Likewise, since 9/11, the global war on terrorism 
mandated the creation of the Homeland Security Research 
Enterprise. Our future homeland security capabilities will be 
determined by today's investment in science and technology. The 
Science and Technology Directorate has to evaluate carefully 
what our homeland security needs are, think creatively about 
how technology can help meet those needs and then direct the 
resources necessary.
    You have made many changes in the management of S&T, and 
they have occurred in the past 9 months. This oversight hearing 
gives us sitting here an opportunity to provide you with 
feedback and to give constructive criticism and praise where it 
is certainly deserved. You deserve praise for finally standing 
up a Homeland Security Research Enterprise and for bringing 
some order to the chaos that ensued at the S&T Directorate 
before you arrived.
    You also deserve praise for finally getting the Directorate 
to execute a coherent strategic plan. The strategic plan 
clearly describes research areas and programs for each division 
and provides a list of technology needs, milestones, budget 
projections and qualitative mission statements for each 
program. It is, in my view, a solid organizational document 
that demonstrates how you have positioned the Directorate for 
success, and I thank you for that.
    But I will say the plan lacks some fundamental information 
that is needed to up the strategic factor, if you will, in what 
is supposed to be a strategic document; and there are four 
areas I want to focus on.
    The first is that the S&T needs discrete goals and target 
metrics. Without quantifiable metrics, it would be difficult to 
gauge success of S&T's research programs.
    Second, those metrics must be used as part of a review and 
assessment process to assess the program's strengths and 
weaknesses, provide recommendations and review overall program 
effectiveness.
    The third, the plan needs to do a better job at conveying 
the balance of its investment across basic applied and advanced 
research and development.
    Fourth, and finally, S&T needs to identify and document 
areas in which other Federal agency resources are relied upon.
    S&T has a complex and difficult mission which requires a 
rigorous strategic planning process. The plan which we are 
examining today is a first step in this process, and I look 
forward to seeing more improvements in the S&T's strategic 
planning.
    Let me again thank you for being here. It is always a 
delight having you here.
    I yield back my time.
    Mr. Langevin. Thank the gentleman.
    Other members of the subcommittee are reminded that, under 
the committee rules, opening statements may be submitted for 
the record.
    [The information follows:]

Prepared Statement of the Honorable Michael T. McCaul, Ranking Member, 
   Subcommittee on Emerging Threats, Cybersecurity, and Science and 
                               Technology

    Thank you Mr. Chairman.
    War spurred the creation of most U.S. government science agencies. 
Likewise, 9/11 and the broad scope of threats against the homeland 
mandated a new technology enterprise to face down these threats--a 
homeland security research enterprise. Indeed, in this political 
landscape in the midst of this war on terror, technology is every bit 
as important in ensuring homeland security as it has been historically 
in establishing military superiority in the Cold War and the Gulf War.
    Our future homeland security capabilities will be substantially 
determined by today's investment in science and technology. That's a 
tall order. To determine investment areas, prioritize them, and 
rationally balance the investments across all disciplines, the Science 
& Technology Directorate (S&T Directorate) has to evaluate carefully 
what our homeland security needs are, think creatively about how 
technology can help meet those needs, and have the wherewithal to 
marshal and direct the resources necessary.
    In addition, the S&T Directorate has to operate unlike any other 
U.S. science enterprise before. In the short term it needs to survey 
and promote the deployment of existing technologies, often across 
agency lines. In the long term, it will need to develop breakthrough 
technologies. And it must be both lean and flexible enough to respond 
to emerging threats. The S&T Directorate represents a new kind of 
organization purposely created to cross agency, disciplinary, and 
pectoral lines.
    Under Secretary Cohen, your appointment at the helm of S&T has been 
a turning point. It is especially true that Members of this 
subcommittee have witnessed many needed changes in the management of 
S&T in your nine months at DHS. This oversight hearing gives us sitting 
here an opportunity to provide you with feedback--to give criticism or 
guidance where needed and praise where deserved. I think there'll be a 
bit of both today.
    You deserve praise for finally standing up a homeland security 
research enterprise, building the organizational framework and capacity 
that will enable you to support your customers and end users in their 
homeland security missions. You deserve praise for bringing some order 
to the chaos that was S&T by finally getting the Directorate to execute 
a classic technology road-mapping exercise, the result of which is your 
5 year Strategic Plan. It is only through this type of coherent 
planning that you will win the allegiance of other agencies and fix 
their technology roles and commitments, as well as entice the 
Department's components to adopt the technology S&T develops.
    The 138 page Strategic Plan clearly describes research thrust areas 
and programs for each division and office and provides a list of 
technology needs, milestones, budget projections, and qualitative 
mission statements for each program. It is a solid organizational 
document that demonstrates how you have positioned the Directorate for 
success. However, the Plan lacks some fundamental information that is 
needed to up the ``strategic'' factor in what is supposed to be a 
``strategic'' document. Now that you have clearly built capacity, I 
would like to see the next iteration of this Plan address some key 
strategic issues that will demonstrate S&T's capability--four of which 
I will mention today.
    First, S&T needs discrete goals and target metrics. Without 
quantifiable metrics, not just qualitative, it will be difficult to 
gauge the success of S&T's research programs.
    Second, those metrics must be used as part of a review and 
assessment process. S&T's strategic planning process can be improved by 
incorporating internal and external reviews of its programs--where 
outside experts can be brought in to assess the program's technical, 
budgetary, and programmatic strengths and weaknesses, provide 
recommendations, and review overall program balance and the adequacy of 
the approaches used.
    Third, the Plan needs to do a better job at conveying the balance 
of its investment across basic, applied, and advanced research and 
development. While S&T has stated investment goals for Basic Research, 
Innovation, and Transition, the Plan does not identify which programs 
are in which of these categories, thereby making it difficult to 
determine whether there is an appropriate balance across the stages of 
research.
    Fourth, and finally, the Homeland Security Act of 2002 purposely 
created S&T to cross agency lines, to coordinate federal homeland 
security research activities. Identifying and documenting programmatic 
areas in which other federal agencies resources are relied upon is an 
important exercise, if only to be able to plan for future years.
    S&T has a complex mission which requires a rigorous strategic 
planning process. The Plan which we are examining today is the first 
step in this process and I look forward to witnessing successive 
improvements in S&T's strategic planning with the goal of elevating the 
Directorate to a powerful U.S. research entity that commands respect, 
marshals cooperation from other parts of the government, and delivers 
technology that allows Americans to feel safe again.
    Thank you, Mr. Chairman, I yield back my time.

    Mr. Langevin. I now welcome our witness, the Honorable Jay 
Cohen, who is the Under Secretary of Science and Technology at 
the Department of Homeland Security.
    Jay M. Cohen is a native of New York. He was commissioned 
in 1968 as an ensign upon graduation at the United States Naval 
Academy. Admiral Cohen has a long and distinguished career in 
the Navy, commanding several ships and submarines during his 
tenure. He was promoted to the rank of Rear Admiral in 1997. 
Prior to his arrival at S&T, he served as Chief of Naval 
Research.
    Under Secretary Cohen was sworn into his current position 
at the Department of Homeland Security in August, 2006. And I 
reiterate what I said in my opening statement, that all of us 
here appreciate your service to our country. We could not have 
a better person, more capable and more talented than you 
serving in the Under Secretary position at S&T.
    So, without objection, Under Secretary Cohen's full 
statement will be inserted in the record; and I now ask you to 
summarize your statement for 5 minutes.
    Secretary Cohen.

 STATEMENT OF HON. JAY M. COHEN, UNDER SECRETARY, SCIENCE AND 
  TECHNOLOGY DIRECTORATE, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Cohen. Chairman Langevin, Congress McCaul, 
Congresswoman Lofgren, Congresswoman Christensen, and 
Congressman Etheridge, it is a great honor and privilege for me 
to come and testify before your committee.
    It seems like just the blink of an eye from last August 
when we discussed the four ``gets``: get the books right, get 
the content right, get the people right, get the process right, 
and the four B's, which I saw as the threats: bombs, borders, 
bugs, and business, which I defined as the underlying cyber 
backbone that enables our electronic society to this day.
    I know you can't read it, and I can't read it, but this 
caterpillar chart, as we call it, just is an attempt to give an 
appreciation for all of the interaction with the Congress, with 
industry and all of the other initiatives that we have put in 
place, as you so eloquently addressed, over that period of 
time.
    But it is about making the Nation safer, and we have a ways 
to go. And I appreciate your tough love. It reminded me of my 
mother. I won't use adjectival grades here, but I am sure, much 
like you, when I would come home with my report card, she never 
concentrated on the highest grades. It was always, what is this 
B or what is this C? And through that tough love she motivated 
me to achieve more. So I know together we will do that.
    I do appreciate very much your recognition of the progress 
that we have made, and I am also very mindful of the progress 
that needs to be made. I know in your questions I think we will 
be able to address some of the details, and I look forward to 
that.
    I feel a little bit like the Verizon commercial today. 
Behind me--I normally don't bring my team with me. I don't want 
them to see, you know, the Christians versus the lions, but in 
this case they have worked so hard for so long, they are my 
network. And I know they can hear me. So to the extent that you 
think we had made progress, I want to give them the credit; and 
perhaps they will stand just for a moment to be recognized, 
please. Thank you.
    Mr. Langevin. Ladies and gentlemen, thank you for your 
dedication and your service. As we well know, you are an 
important part of the team; and it is good to know you are 
there behind Secretary Cohen. Thank you.
    Mr. Cohen. To the extent that we have more to do, I know 
you will--and I expect you to--hold me accountable.
    But it has been an exciting time. As you know, I believe in 
an open and interactive process. We had our first S&T 
Stakeholder Conference in May here at the Reagan Center, and we 
are so pleased that more than half a dozen of the congressional 
staff members came and participated in that. It was a 4-day 
conference; and the message we gave to industry, laboratories, 
universities and our international partners is that we are open 
for business, and we know how to do business. And I think they 
got it.
    I know you read the press on a regular basis, and I think 
an important part of what we do is to continue the optimism 
that America has always enjoyed in its dependence on science 
and technology to solve the problems of the day. As Congressman 
McCaul has indicated, so many things are born out of tragedy or 
war, but in the end it is a good thing.
    So I have had the Inspector General involved in all of our 
IPT process, your staff, as they have desired. I take your 
admonitions very seriously. It is a new Department. We are 
working hard. It is a work in progress, and I am satisfied that 
we will continue to make progress with your help.
    So, with that, I welcome your questions, I welcome your 
oversight, and, to the extent that we can do better, I look 
forward to engaging with the committee in a bipartisan, 
nonpartisan way, which I am so appreciative of. I look forward 
to your questions, Mr. Chairman and gentlemen and ladies.
    Mr. Langevin. Thank you, Secretary Cohen. I just want to 
again thank you for your testimony and for being here.
    [The statement of Mr. Cohen follows:]

   Prepared Statement of the Honorable Jay M. Cohen, Under Secretary 
    Science and Technology Directorate, U.S. Department of Homeland 
                                Security

    Good morning Chairman Langevin, Ranking Member McCaul, and 
distinguished members of the Subcommittee. It is an honor to appear 
before you today to present the strategic plan for the Department of 
Homeland Security (DHS) Science and Technology Directorate (S&T 
Directorate).
    I want to thank the committee for its leadership in support of the 
S&T Directorate. With your guidance, the S&T Directorate has 
strengthened its organization and processes to better serve the 
American people and secure our homeland.
    This strategic plan provides the framework that will guide the 
Directorate's activities over the next five years. It focuses on the 
four key areas (``the four gets'') that we must excel in to accomplish 
our mission: We must get the organization, the people, the books, and 
the program content right.
    This plan presents my strategic approach and business model for 
``the four gets''.
    The focus of the first section of the plan, The S&T Directorate--
Aligned for Success, is on getting the organization right. It lays out 
how the S&T Directorate's realigned structure breaks down 
organizational barriers and fosters connections and collaborations 
among programs.
    The second section of the plan, Balancing S&T Directorate 
Investment, addresses getting the program content and the books right. 
It speaks to how the S&T Directorate will stay customer-focused and 
output-oriented by investing in a balanced portfolio of advanced 
research programs, the planning of which is guided by customer-led 
Capstone Integrated Product Teams. This approach enables us to more 
clearly define what we will do for our customers, how we will do it, 
and how we will measure results. We will also ensure that we stay 
focused on the priority areas for the S&T Directorate. This approach 
will ensure we deliver critical homeland security technologies that our 
nation needs in the quickest, most cost-effective manner.
    The third and fourth sections of the plan address how to populate 
this business model with the right mix of people and skills to 
accomplish our mission. The third section, Enabling U.S. Leadership in 
Science and Technology, discusses how the S&T Directorate will leverage 
the DHS laboratories, the Homeland Security Institute, the DHS Centers 
of Excellence, the DOE National Laboratories, and international and 
intergovernmental partnerships to meet homeland security research 
requirements.
    The fourth and final section of the plan, Developing our 
Professional Workforce, recognizes that as a knowledge-based 
organization, the S&T Directorate's most valuable resource is its 
people. The leadership principles and management initiatives outlined 
in this plan make hiring, retaining and motivating a quality workforce 
a priority.
    Accompanying this strategic plan are three attachments that provide 
more details on topics discussed in the plan:\1\
---------------------------------------------------------------------------
    \1\ See the Committee file.
---------------------------------------------------------------------------
    Attachment 1: S&T Directorate Five-Year Research and Development 
Plan (FY 2007-2011)
    Attachment 2: HIPS and HITS (S&T Directorate Homeland Innovative 
Prototypical Solutions and High Impact Technology Solutions)
    Attachment 3: Capstone IPT Representative High Priority Technology 
Areas
    Members of the Subcommittee, I thank you for the opportunity to 
meet with you today to present the S&T Directorate's strategic plan and 
business model. This strategic plan and all the initiatives we have 
undertaken in the DHS S&T Directorate since August 2006 have been with 
the full knowledge and bi-partisan engagement of the Congress. I 
welcome and very much appreciate the wise counsel, advice, and 
oversight in helping me meet DHS mission requirements. As we move 
forward, I am confident that this plan will allow us to address our 
customers' needs and drive the development of technologies that will 
make our Nation safer. The world is a dynamic place and we must remain 
flexible and responsive as threats and opportunities evolve. I will be 
happy to take your questions now.

    Mr. Langevin. I will remind each member that you each have 
5 minutes to question the Secretary, and I now recognize myself 
for questions.
    Secretary this committee, along with several other 
committees, has asked repeatedly for the strategic plan 
required by the Homeland Security Act. Several months ago, your 
staff had notified me that you were planning on releasing two 
plans for delivery in June. Now, according to your staff, the 
first 5-year plan and business model for S&T was required by 
the fiscal year 2007 appropriations bill, while the other is a 
strategic plan required by Section 302 of the Homeland Security 
Act of 2002.
    I have two questions here, is where is the National 
Strategic Plan required by the Homeland Security Act and how 
would this be different from the strategic plan that you sent 
us a few weeks ago? And the other is just we need to know why 
you submitted a report to satisfy report language prior to 
submitting a report required under the statutes.
    Mr. Cohen. Yes, sir. Your questions are right on. I will 
answer the second question first.
    As you may remember--and I apologize for any 
miscommunication on this. When I testified at the start of this 
Congress, you and other members addressed this specifically, 
the national plan, as well as the need to get my house in order 
with a strategic plan. And at that time, as I remember, I 
testified that with all the process improvement and the changes 
that we were making, not just at S&T in Homeland Security but 
this was a process change in how we do business throughout the 
Department, that my first focus was on getting my house, my 
processes, my planning in order; and I committed to get that to 
you in June.
    As you know from our many years of working together, I try 
and be a man of my word; and so I am pleased that, with a lot 
of jawboning and arm-twisting through the bureaucracy and hard 
work by my people, we got you the S&T Directorate Strategic 
Plan. So that is what I delivered.
    I believe I also stated at the time that I felt very 
strongly in support of the enabling legislation and that being 
the national plan. I do in fact have the national plan. It had 
been worked on for 3 years, long before I got there.
    But the enabling legislation, which states developing in 
consultation with other appropriate executive agencies, has to 
this point been interpreted, not by the Congress but by my 
people, as to mean concurrence by other departments, executive 
departments, HHS, DOD, and on and on. Because the 
responsibilities are very broad, as you have indicated; and 
that is a torturous process, as you can imagine.
    So what I said in my testimony was, to the extent that I 
could get this to you by June, I would work hard to do that. I 
have not been able to achieve that. But because I feel so 
strongly about the need to integrate the national plan, in 
addition to my Directorate's plan, I am going to take a 
different interpretation. I am going to take the literal 
interpretation of ``in consultation'', and I will work this 
through the shop chain now, where the other departments, 
executive branches, et cetera, get to make comment. But I will 
work to get this through OMB, and I will try and do that to the 
best of my ability before the end of this fiscal year, and we 
will incorporate in that many of the issues that you have 
raised where I may not have met the mark with my strategic 
plan.
    Mr. Langevin. Mr. Secretary, I know you are a man of your 
word. I respect you as being such, and I know that you will do 
your best to get that to us as soon as possible.
    Mr. Cohen. Sure.
    Mr. Langevin. The subcommittee on another topic heard 
devastating testimony, to be quite honest with you, just last 
week about the myriad cybersecurity vulnerabilities within DHS 
itself. Through the committee's work, we have identified 
hacking and viruses and other threats in cyberspace to be one 
of our greatest vulnerabilities and one that can have 
significant real-world consequences, as you would well know. 
Virus makers and hackers are improving their skills much faster 
than protective measures are being created. I am disappointed 
and concerned, actually, that cybersecurity is not highlighted 
in the strategic plan; and I consider the plan of wanting to 
spend a total of only $37 million in cyber R&D from now through 
fiscal year 2011 to be a serious oversight.
    This program has not really been supported properly, taken 
seriously, as I think it needs to be. Just last month, the 
House passed a measure authorizing $50 million in cybersecurity 
R&D at the S&T Directorate for fiscal year 2008 alone.
    Now, can we ask you to answer this, that why haven't we 
seen more interest in the S&T Directorate regarding 
cybersecurity RDT&E, and why aren't we seeing any cyber High 
Impact Technology Solutions, HITS as you called them, and 
Homeland Innovative Prototypical Solutions, or HIPS as they are 
called? And my final part of this question, are you funding any 
innovative game-changing research for cybersecurity?
    Mr. Cohen. Well, Chairman, number one, I appreciate very 
much your leadership in this area.
    As you know, on day one, my very first testimony, we talked 
about the four B's, and the final B was business. I testified 
that that was the underlying cyber backbone that enables our 
economy; and we know, as you stated and this subcommittee is 
very aware, real-world events, that this is a new form of 
warfare.
    Responsibilities for that are divided and distributed, as I 
believe they should, throughout the government. But I have a 
clear responsibility to enable, with science and technology, 
the underlying breakthroughs, where they are possible, for the 
DHS Department to make the Nation more secure.
    Now this is something that every one of us deals with every 
day. We spend 100 or more dollars out of our own pockets on 
Norton or McAfee, et cetera, as we try to protect our own 
computers. And you are much more familiar than I am with the 
threats to identity theft and how people are now being much 
more hesitant in using the Internet, which is the wild, wild 
west. This is a case of where the technology has outstripped 
the regulations and the safeguards that are necessary; and all 
of us, individually and different components of government, are 
trying to come to grips with this.
    While I am not an expert in this area, and I won't say I 
stayed at a Holiday Inn last night, I did do Y2K for the Navy, 
and we seem to have gotten through that New Year's Eve fairly 
well. So I do appreciate this very much.
    In my model, I have made, and you know this, S&T in large 
measure 50% of my budget, customer-focused, output-oriented. I 
slave my precious dollars to the customer. In this case, the 
customer in cyber is predominantly Greg Garcia, who we call the 
cyber czar in the Department of Homeland Security. This process 
started in earnest in November, about the time Greg came on 
board. He has been working very closely with my Director of 
Transition, Bob Hooks; and we have satisfied about 80 percent 
of the requests that he has made in that Integrated Product 
Team for underlying S&T investment to enable his mission. That 
is not enough. We can and will do more.
    A comment was made about how the overall budget is handled. 
As you are aware, when the Department was first stood up, the 
Congress and the administration allocated about a third of the 
S&T, about $500 million to nuclear/radiological, about a third 
to chem/bio, and a third to everything else. And ``everything 
else'' for me addresses the 22 components and agencies that are 
my customers in law for Homeland Security.
    Is that balance right? I don't know. That is up to the 
Congress and the leadership. I can make suggestions. We make 
technology opportunities available.
    Now, you asked about our innovation, which represents 10 
percent of my budget. This area falls under Command, Control 
and Interoperability; and I had to go from--my words--zero to 
hero. We had to quick-start an innovation portfolio, because 
none existed focused on the customer or on our divisional 
structure, because we weren't organized that way.
    I do not currently have an innovative initiative for the 
cyber world, but I would welcome Greg Garcia, Charbo, or others 
to come forward, and I talk about it as their hopes and dreams. 
What can't they do with existing means but need to do to make 
the Nation safer? And as they do that, as you know, I am 
prepared to come to the Congress, request above threshold 
reprogramming. I am not shy. Cancel other programs as 
appropriate.
    In the CCI area, we have been much more focused on 
interoperability for the first responder in time of a major 
catastrophe. So it is an important area.
    We have a methodology called the Technology Oversight 
Group, which involves the Deputy Secretary, the Under Secretary 
for Management Policy and the CFO, where I bring unfunded 
mandates from my customers and make proposals to the Technology 
Oversight Group to then reallocate funds. This is an important 
area. It must be addressed. I look forward to working with the 
committee on this.
    I hope that is a satisfactory answer, because it is an 
honest answer.
    Mr. Langevin. We will definitely work closely with you on 
this cybersecurity issue. And I would hope to see not only 
Secretary Garcia coming to you with his needs and ideas, but I 
would like to see S&T be much more proactive, too, in 
developing in a sense that next generation cybersecurity 
defense so that we are staying one step ahead of the bad guys.
    You know, in our last hearing on cybersecurity, when we 
looked at the FISMA scores and DHS basically got a D on the 
FISMA scores, that was really disturbing. It should concern all 
of us. I asked the folks in the cybersecurity division how can 
they expect to be the leader for the rest of the country and 
the rest of the government on cybersecurity issues when they 
are getting a D on their FISMA scores?
    Now I recognize we also, in fairness, asked the question, 
if everybody did everything right and everybody in government, 
all agencies, got an A on FISMA scores, would we be safe? And 
the experts universally acknowledged, no, we wouldn't be 
completely cybersecure, so to speak.
    But, clearly, just at the very basic level, Homeland 
Security Department has a long way to go toward closing the 
vulnerabilities with respect to cybersecurity; and that is one 
area I plan to spend a lot of time in the future trying to 
close those gaps.
    My time has long expired; and I would now recognize the 
ranking member, the gentleman from Texas, for 5 minutes.
    Mr. McCaul. Well, thank you.
    I think the work of this subcommittee and of your office is 
probably the most important work in the homeland security 
arena. I think technology is going to be the answer for so many 
of our problems and so many of our threats. I say that very 
sincerely; and I know you believe that as well, Admiral. I 
think you are doing a darn good job just 9 months into it.
    I want to pick up on where the Chairman left off, because 
we are joined in this issue in a very bipartisan way.
    Imagine agents of a foreign power breaking into the 
Pentagon and taking file cabinets out and getting caught. That 
would be a sensational national incident. National security 
would be invoked. Yet in the virtual world--that is the 
physical world, but in the virtual world that is happening. I 
think it is something that the American people really don't 
seem to understand.
    I think, since 9/11, cybersecurity needs to be taken more 
seriously. When you consider the capabilities that foreign 
governments have to break in and steal information from the 
United States Government, when you consider the even more 
worse-case scenario of a foreign government terrorist rogue 
nation that has capability to break in and shut down critical 
infrastructures, power grids, electricity, financial 
institutions that could be hacked into and modified, this is 
all very serious.
    So the one is a follow-up to the chairman. When I saw the 
budget at 1 percent--I did appreciate your answer previously. 
And when I saw the cybersecurity at 1 percent in the budget, I 
got to tell you I really feel like we can do better than that. 
If you need the funding, I think it is incumbent upon you to 
ask for that as well.
    I want to see if you could comment on that statement but 
also the idea that the chairman and I hope to introduce 
together and that is the idea of a National Vulnerability 
Assessment on Cybersecurity. That would encompass not only the 
Federal agencies, Federal Government but also the private 
industry infrastructures that, frankly, are, 97 percent of it, 
outside the Federal Government. In my view, after the testimony 
we heard, the briefings we have received, I believe that is 
something that is really long overdue.
    And not to inundate you with too much in one round of 
questioning, I don't know if we will get a second round before 
the bills go off, but, obviously, one of the biggest issues in 
this Congress is the border, border security.
    Mr. Cohen. Sure.
    Mr. McCaul. I think, in my view, technology is going to be 
the answer for that. I would like to see more technology than 
fencing. I would like to see more virtual walls than physical 
walls. And I know that was budgeted at 5 percent as well. If 
you could comment on the needs there, where are we going in 
terms of securing the border technology and is 5 percent an 
adequate number?
    Mr. Cohen. Well, Congressman McCaul, first of all, I could 
not agree with you more. I think it is appropriate that this 
subcommittee is entitled Emerging Threats, because so much of 
what we are dealing with is emerging. And in the area of cyber 
and so many other areas of warfare it is measure, 
countermeasure, counter-countermeasure. You never get to the 
end point. You continuously have to work, remain alert and 
improve.
    So the threat in cyber is real. You have identified that. 
You just have to look the Estonia incident of earlier this year 
to understand the magnitude of what it can do to a society.
    We talked a little bit about the innovation profile. At the 
end of the day, I believe that New York was a target on 9/11 
not because of ethnicity or other reasons, but it was the 
financial capital of the world. It was the World Trade Centers. 
It was Wall Street. This is an image that resonates around the 
world.
    And while it is not cyber specific, one of our very first 
innovations was a resilient electric grid, which I am very 
pleased to tell you we are on contract with Consolidated Edison 
and American Superconducting. The purpose of that is 
nationwide, but it is focused in Manhattan to ensure the 
reliability of the underground stations so that on hot days, 
when one may become overloaded and you get the sequential 
brownout or blackout, as California and other States have 
suffered, that we can use superconducting--this is cutting-edge 
technology from New England and from the University of Texas--
to go ahead and prevent that. And, by doing that, keep up the 
financial district, keep up all our services that are cyber-
enabled. So it is not a one-to-one correspondence but today 
power and cyber and IT all go together.
    The 1 percent funding is at this point in time what the 
customer, Greg Garcia, asked for and was able to justify. But 
he is very rapidly coming up to speed. He is working with 
associations, working with industry. He hears you.
    I am delighted to have not only Dr. David Boyd, who is my 
division director for Command, Control and Interoperability, 
but we have Dr. Maund, who I understand and read his testimony 
before your committee, where he focused on we need to drive 
security improvements, we need to discover solutions to select, 
prevent, and respond to cyberattacks.
    And finally, and maybe most important, we need to deliver 
new, tested solutions for cybersecurity threats.
    So I would say that 1 percent is minimum funding for any 
program I have. We have to and will do better.
    I have shared with you the Technology Oversight Group. We 
will make the case, as the opportunities create themselves. And 
to the committee I commit to get smarter and to work harder 
with my people, Dr. Maund, et cetera, to define technology 
opportunities, where we might demonstrate capabilities and 
methodologies that we haven't thought of in the past. But I 
don't have those just yet.
    You asked about a national assessment. I think that that 
would be of great value. It must be interagency. In my 
experience in working with the Congress, this is an area where 
associations in their testimony can help a great deal to focus 
what needs to be done. Because at the end of the day they are 
representing the constituents, and they have to live and 
execute the results of what we may do.
    And, finally, on border security, this is an area where we 
are very much engaged with all of the border aspects. We show 
it, of course, in our Integrated Product Team. It is about 5 
percent of my budget.
    Secretary Chertoff has testified that the SBInet Secure 
Border Initiative is using state-of-the-art technologies, 
because he wants to facilitate making the border secure. 
Whether it is an actual fence, a virtual fence, monitoring, 
there are many different approaches based on geography and 
where it falls.
    But I think you are aware that, working with Greg Giddens 
and working with CBP, we have established, and did this some 
time ago, an experimentation station, which I encourage you to 
visit in Nogales, where anything that is going into SBInet is 
tested--this is part of my test and evaluation hat--as well as 
new ideas, as well as feedback from our Border Patrol agents, 
et cetera.
    So as SBInet progresses, as we look to the next round, we 
will have additional requirements. But in the area of 
innovation, what I am trying to do with tunnel detect, how we 
can use UAVs potentially, we have got a proposal, to find these 
tunnels real time before they are a danger, to have what we 
call SCOPE, which is Scalable Common Operating Picture, which 
is to have CHLOE, which is UAVs doing high-altitude 
surveillance in direct support of our CBP. These are areas 
where I am trying to embarrass the program of record, de-risk 
these new leap-ahead technologies. And when I have de-risked 
them in S&T, so I don't put the program of record acquisition 
billions of dollars at risk, we then make them available to 
CBP, to SBInet to incorporate them. And I am very pleased to 
tell you that Prime, Boeing and DRS are working with us in this 
area; and that is very good news.
    And, finally, we talked a little bit about alignment in the 
CCI area. I previously testified as to our Centers of 
Excellence. And I thank you so much. In an age when we are 
challenged with developing our work force and young people in 
middle school are turning away from science and math--and this 
is something we discussed at Texas A&M, we discussed in Rhode 
Island. It is our future.
    We now are aligned, and as you can see in Command, Control 
and Interoperability, thanks to David Boyd and his efforts, we 
have strong backup there for the underlying basic research, 
where the breakthroughs will come. But I did not previously 
have the national labs aligned.
    On the 1st of May, we had the first-ever meeting of all of 
the directors of all of my and the DOE labs. We had my two 
counterparts from DOE there, and we came up with a managed 
governance model. I asked the national labs to align as the 
other pillar, universities and laboratories of basic research, 
with my divisions; and, as you can see, Command, Control and 
Interoperability has Los Alamos, Livermore, Pacific Northwest, 
Oak Ridge, the National Test Center, et cetera----
    It is exciting. This is an area where we have brought 
people to the table. Forty percent of my basic research budget 
will go to the national labs, forty percent will go to the 
universities, and twenty percent will be openly competed. I 
think that is a good model. It is the model we evolved to in 
Navy. It seems to have worked there. I think we are at a 
stepping-off point, and I know you will hold me accountable, 
but I want to let you know we take this very seriously.
    Mr. McCaul. Thank you, Admiral.
    Mr. Langevin. Thank the gentleman for his questions.
    The gentlelady of the Virgin Islands is now recognized for 
5 minutes.
    Mrs. Christensen. Thank you, Mr. Chairman; and welcome 
back, Admiral Cohen.
    I would just like to piggyback on the last thing that you 
mentioned about the Centers of Excellence. In this document you 
talk about having some minority serving institutions as Centers 
of Excellence. Can you tell me how many or what percentage of 
those Centers are at Historically Black Colleges and 
Universities, or some ballpark? If you don't have the exact 
number.
    Mr. Cohen. The short answer is too few, which is why, with 
the help of the Congress, in the fiscal year 2007 legislation--
as you know, the Centers of Excellence were at risk last August 
because we could not show an alignment of the Centers of 
Excellence, as mandated in the enabling legislation, to our 
investment portfolio. And on top of that, we couldn't show 
alignment of our Fellows and Scholars Program to the Centers of 
Excellence.
    So working with the Centers of Excellence in September, we 
came up with this alignment. I know you have been briefed on 
that. And we came back to the Hill; and the Congress, 
bipartisan and very kindly, wrote legislation that had me come 
back within 60 days--Mr. Chairman, I am pleased to tell you I 
got back within 58 days--and did brief the appropriators on 
this, and they were pleased with the way ahead.
    What we found was we did not have what I call the face of 
America represented. I will take for the record the specific 
numbers. But what we have now in the new four new Centers of 
Excellence is very strong historically black and other MSI 
representation. We wrote that into the broad agency 
announcement. It is one of the criteria that we are applying.
    Because when you look at the demographics of America, we 
must recruit from the best of the best; and I look forward to 
Puerto Rico and Virgin Islands participating, if not in the 
lead then in conjunction with some of these other 
organizations.
    Mrs. Christensen. Okay. Thank you. Because I was going to 
ask about in conjunction, because sometimes the minority 
serving institutions may not have all of the infrastructure 
needed to really fulfill the terms of a contract, but if they 
work as a mentee or a subcontractor that can work.
    I have another question. Because the last time you were 
here I had talked about the fact that we introduced several 
times before a biosecurity bill to increase research to shorten 
the time between 1-day identification of a biologic agent and 
to shorten the time between the identification and the 
development of a vaccine or a countermeasure; and you had 
indicated, if I remember correctly, that you were focusing on 
that. You know, so I took from that that if S&T was really 
making that a priority that I probably didn't need to introduce 
my legislation again.
    Last week or the week before, we had a hearing on multiple-
drug-resistant TB. The Director of the CDC was here; and I 
asked her, isn't any research going on to shorten the time to 
identify TB? Because we were being told and the testimony said 
12 to 16 weeks or something like that. And she said no.
    Since then, we started looking around; and that is not 
exactly accurate. Can you tell me what--if you can tell me, as 
specifically as possible, what is the S&T Director doing in 
terms of that kind of research?
    Mr. Cohen. Yes, ma'am.
    First of all, there are many, many, many diseases; and I am 
not focused--
    Mrs. Christensen. Or even on the ones that have had the 
threat--the material threat assessment.
    Mr. Cohen. Yes, ma'am.
    Mrs. Christensen. Because I know of research that 
Georgetown is doing that is called fluorescent-activated 
sensing technology, because we were looking, and that one came 
up. It is a fascinating technology that can identify from the 
air--has the potential to do that--agents and identify them 
specifically within hours.
    Mr. Cohen. Yes, ma'am. I am familiar with that technology, 
and I did watch that particular hearing with the CDC.
    First of all, I am committed to shortening the time from 
discovery and invention to delivery and utilization; and that 
is true in all areas.
    In the area of vaccines, as we look at the major threats--
    Mrs. Christensen. Yes.
    Mr. Cohen. --I am so pleased to have Dr. John Vitko here, 
who, hard to believe, signed on for an extra year with me to 
lead my chem/bio division. And it is exciting. Some of the work 
that has gone on used to be called DNA vaccines, is today 
called agile vaccines. And the goal there is, thanks to 
genomics, which has given us so many breakthroughs, when you 
identify the antigen, and it may very well be a manufactured or 
designer antigen--
    Mrs. Christensen. Yes.
    Mr. Cohen. --we then can use DNA genomics to come up with 
an efficacious vaccine to then apply. And then the bad guy 
modifies theirs and we modify ours. We believe it is possible 
to get that down to weeks. But that has to go through clinical 
trials, et cetera----
    For the 30 agents that we have identified, Dr. Vitko and I 
have a robust investment plan; and that also includes animal 
diseases, such as I used to call it hoof and mouth. I 
understand now it is foot and mouth. In fact, before Plum 
Island closes in the next 10 years, they believe, those 
scientists, and I visited with them, that their legacy will be 
an efficacious vaccine for foot and mouth, which will protect 
our livestock. So this is an area where we can certainly use 
help, but legislation in and of itself won't fix it.
    There are some areas where we can make great progress and 
discoveries, as in Georgetown. BioWatch, as you know, has been 
an enormous success story. When the hydrogen sulfide cloud many 
months ago was over New York, Mayor Bloomberg within an hour 
was able to come out--
    Mrs. Christensen. That is on the chemical, but I think we 
need to do a lot of work on the biological.
    Mr. Cohen. We agree. We agree. It is a priority. I have at 
least $5 million toward this--John, you can correct me--but in 
several of the critical areas for vaccine development; and we 
are trying to use the cutting-edge technologies.
    Mrs. Christensen. Thank you.
    Mr. Langevin. Thank the gentlelady.
    The gentleman from North Carolina, Mr. Etheridge, is 
recognized for 5 minutes.
    Mr. Etheridge. Thank you, Mr. Chairman; and, Admiral, good 
to have you back.
    While we are on innovation, let me ask you a question in 
that area. Because Homeland Security's Advanced Research 
Project Agency is modeled after the very successful DARPA 
program with the military but functions quite differently. 
DARPA is a high-level, forward-thinking R&D think tank with no 
procurement responsibility, while the HSARPA mixes research and 
procurement and focuses on near-term needs.
    My question is this. How do you promote innovation and 
radical thinking when you are focused, as your strategic plan 
says, on putting advanced capabilities in the hands of your 
customers as soon as possible? My question is, does Homeland 
Security need an agency more like DARPA?
    Mr. Cohen. Well, sir, the enabling legislation, as I have 
told you, the 19 pages for S&T--O&R was half a page in Title 10 
in 1946. So it shows you the impact of word processing over 60 
years. But you all put a lot of thought into that enabling 
legislation, and it could have given us a camel, you know, an 
organization designed by committee. But it didn't.
    HSARPA is different than DARPA. Let me give you a couple of 
examples.
    Mr. Etheridge. Okay.
    Mr. Cohen. Remember the enabling legislation very clearly 
tells me, as S&T executive of Homeland Security, not to 
reinvent National Institutes of Health, not to reinvent DOE or 
DOD labs, et cetera. And that is the right thing to do. But 
what you also tell me is all of those organizations and the 
billions they spend must be made available to me, meaning I get 
full disclosure. I can't tell them how to invest, but, to the 
extent they invest, I take my precious dollars and leverage 
that.
    You know, right in this very building, TSWG, the Technology 
Working Support Group, 2 months ago we had a joint display. 
TSWG sits at the table of my Integrated Product Teams offering 
DOD solutions. DARPA does what they do independent of the 
customer, and that is their design, and that is how you get an 
Internet.
    In Navy, I partnered with them and I took my highest risk. 
I don't have that luxury.
    DARPA's budget is $3 billion. My HSARPA budget is $30 
million, 1 percent of DARPA. So when I take in my HIPS and HITS 
and I tell you I am going to protect civilian aviation from 
65,000 feet against MANPADS and save the cost, weight, and 
liability that the airlines don't want to put on their planes, 
I would tell you that that is innovation and that is 
breakthrough.
    Mr. Etheridge. Let me follow it up. As you identify project 
areas where breakthrough technologies or prototypes are 
currently available, you and I both know that is changing and 
changing very rapidly, yet a formalized procedure for 
identifying these areas is not described in either the 
strategic plan, nor is it described in the R&D plan. So my 
question is the extent to which the integrated product team 
influences these decisions is also explained. Can you enlighten 
me a little bit on that and clarify that point?
    Mr. Cohen. Yes, sir, and I will make it fairly succinct 
because am actually excited about how this develops. The 
Chairman more than most--one of the reason I was Chief of Naval 
Research for 6 years, it took us 3 years to come up with this, 
and we finally got it right, and they said, now execute it. The 
integrated product team is where the customer tells us where 
their capability gaps are.
    In Navy, we limited that process to a 2--to 5-year near-
term spiral development. I talk about 3 to 5 megapixels. It 
enhanced acquisition. It did not challenge acquisition, and did 
not give leap ahead or breakthrough.
    We left in Navy innovation 10 percent to leadership, the 
CNO, the Commandant, the Secretary of the Navy, to have me 
embarrass programs of record to challenge them to be better. 
And the basic research we left to the scientists for 
opportunities that occurred.
    What I have found in the short time, the 9, 10 months that 
we have had this process in place in DHS, I have a very 
enlightened and educated customer in Admiral Thad Allen and in 
Greg Garcia and in Vice Admiral Johnson and in Chief Aguilar. 
And what we are finding is in IPT, they are telling me like 
SBInet or Deepwater, what their near-term needs are. We are 
giving them technology solutions from universities, 
laboratories, industry, international.
    But what is happening with the customer, different than 
Navy, is the customer is sharing with me, you know, you don't 
have something in the near term, I need a higher-risk solution, 
and I am willing to work with you. That is innovation, and the 
customer is invested.
    Where the customer does not see higher risk and does not 
have near term, the customer is coming to me--and they are not 
scientists--but they are saying, Jay, you have got to go to the 
universities, you have got to go to the laboratories. We need 
breakthrough in basic research so I can perform my mission. It 
is a much tighter process than I had in Navy or I imagined 
would develop. And I will articulate that in the next strategic 
plan so that everyone understands.
    Mr. Etheridge. Thanks. That will be helpful.
    I yield back.
    Mr. Langevin. [Presiding.] I thank the gentleman.
    The gentlewoman from California Ms. Lofgren is recognized 
for 5 minutes.
    Ms. Lofgren. Thank you, Mr. Chairman. I will be brief.
    I agree with the comments previously made on the amount of 
resources being dedicated to cyberresearch and think that does 
need to be addressed and look forward to further information in 
the future on that.
    I want to ask about your Centers of Excellence. You have 
eight right now. We had originally envisioned 10. Do you see 
any gaps in the existing centers? What are your thoughts about 
the next areas that need attention?
    Mr. Cohen. Yes, ma'am. First of all, we thank the 
university system of California. You know, I applied three 
places when I was 17, Coast Guard Academy--I was a New Yorker--
the Naval Academy, and the University of Southern California. 
And part of it was because of the Beach Boys' song, Wish They 
All Could Be California Girls. I was accepted to USC, but I did 
not get--
    Ms. Lofgren. Went to Stanford as well.
    Mr. Cohen. As is my wife, so I married up. And I know you 
heard what I said, I won't repeat it in depth. The COEs were 
not alike. Individually the COEs are world-class. For example, 
USC is my only cross-cutting COE because because they do 
operations analysis, operations research, and in today's world 
where we do have limited resources, and we have an ingenious 
and devious enemy, we must use risk-informed decisionmaking. 
And this is an area where I have gone to national academies to 
develop the science, like we did operations research after 
World War II--
    Ms. Lofgren. But the problem is everybody can't be an 
expert on everything.
    Mr. Cohen. Exactly. Exactly. So that is one cross-cutting. 
What we found in our organization, we did not have a COE for 
explosives. I did not have a COE for the borders and maritime 
specifically.
    Ms. Lofgren. And now I am asking are there other similar 
issues where you hope to fill in with other Centers of 
Excellence?
    Mr. Cohen. As I would tell you, as I am currently 
configured--and you are going to think this is a setup, and it 
is not--I am not satisfied with how I am configured in the 
cyberworld. I think the direction we went suboptimized our 
ability to develop like a Carnegie Institute for Cryptology. 
They are all universities that no one can compete with. And I 
am working with David Boyd and with my university people to 
figure out both in the chem-bio area--because I have three 
different, plant and animal, zoonotic--how to bring them 
together to have the critical mass. We will work to do the same 
in command and control.
    But since I align to my customer and I do that through 
enduring disciplines, I would tell you that I think by 1 
October or shortly thereafter, when we have down-selected and 
have nine Centers of Excellence, each one for 6 years, rotating 
every 2 years with the recompetition of one-third, because I 
believe in competition, we will probably have the 90 percent 
solution. If you think I have deficiencies, I welcome--
    Ms. Lofgren. In the public setting I don't want to talk 
about the vulnerability that was discovered, but Lawrence 
Livermore is not in my district, but it is nearby, is a 
tremendous resource to the country and has provided a real 
service to the Nation in analyzing transportation 
vulnerabilities. And I look at the amount of people on rail 
transit and compare it to what we are doing on aviation, and we 
have done nothing or almost nothing there. Don't answer me now, 
I just commend that to your attention.
    I would like to talk about SBInet. You mentioned it. And we 
were just advised that the deadline, June 13th deadline, for 
Project 28 has not been met because of technology problems. At 
least that is what we were told. You mentioned that the S&T is 
playing a role in derisking technology in programs including 
SBI. What role did S&T have in the delay issues relative to 
implementing Project 28? And who actually is managing SBInet? 
It is in CBP, but you have a role. How do we sort through this?
    Mr. Cohen. I will take the specific answer on Project 28 
for the record.
    Mr. Cohen. But we have the Borders and Maritime Division 
currently headed by Captain Dave Newton, who is my Deputy 
Division Director, and we have dedicated program managers who 
work with Greg Giddens. But overall the transition comes out of 
my director--
    Ms. Lofgren. If you are going to answer the question later, 
and if you don't know the answer offhand, I just have one other 
quick question, and that has to do with standard setting. I 
remember it was almost 4 years ago, and I asked whether we 
could set standards on biometrics and suggested--actually I 
think it was the at the Science Committee at that time and then 
later reinforced here at Homeland--NIST, whether they could 
provide standards, because they do that so well. And they said 
of course they could, and that they would need about 6 months 
and several--it needs to be a funded project, a couple of 
million dollars, and they could set those standards that would 
be open standards, and of course it was never done. And now we 
have inconsistent standards that I personally believe 
ultimately will cost us billions of dollars.
    Has S&T been involved in standard setting in the biometric 
arena, and do you plan to be? And if not, do you know whether 
NIST is planning to be?
    Mr. Cohen. I am responsible in the law for test and 
evaluation for the Department and setting standards for the 
Department. This is an area that was not well aligned. We now 
have a stand-alone in my organization for test and evaluation 
and standards. Burt Coursey from NIST is on board with me. We 
have a very close relationship with NIST.
    I will get back to you on the exact status of the biometric 
standards because you and I are in agreement. This is a very 
important area, one of many, and to the extent that we are not 
well along the power curve, I will personally get involved.
    Ms. Lofgren. I know my time has expired, but I would just 
like to say at this point we are going to have to deal with a 
way, because we failed to do this, to incorporate legacy--
inconsistent legacy systems. So the opportunity to proactively 
set those standards is gone many years ago, and it is going to 
be a more difficult mission that we have.
    Mr. Cohen. I certainly agree, but as you know, the refresh 
cycle in these technologies sometimes is less than 18 months.
    Ms. Lofgren. No, no, I understand that. I represent Silicon 
Valley. But we also have databases now that we don't want to 
abandon. And I thank the gentleman.
    Mr. Langevin. I thank the gentlewoman.
    I have one final question, and then if the other two 
Members have additional questions, if you would like to go for 
a second round, you are welcomed to.
    But my final question, Secretary, the S&T strategic plan 
does not discuss what specific performance metrics or other 
measures are used to gauge a program's progress or success as 
we are reading it.
    How does the S&T strategic plan tie to the Department's 
performance and accountability report, otherwise known as PAR? 
The PAR uses specific measures to assess S&T programs, and why 
are these S&T measures not discussed in the S&T strategic plan?
    Mr. Cohen. Mr. Chairman, I will correct that. But I do want 
to make it clear that I am a big believer, and you know that, 
in metrics. We have three investment areas: basic research, we 
have acquisition transition or product transition, and we have 
innovation. The metrics in those three areas are fundamentally 
different, but not in the HSS&T, but in the S&T community.
    As you are aware, in basic research, university and 
laboratory, the metrics, because you don't know what you don't 
know, and you have to go up a lot of alleys to find out which 
ones are blind, and we don't control when a discovery is made, 
are generally focused on what are the degrees, number of peer-
reviewed papers, external awards like Colliers, Nobel, the 
level of investment, et cetera, et cetera. Those are the 
softest of metrics, and that is the eternal question that NSF 
and everyone else has asked.
    In product transition, that is acquisition lite. That is 
half of my budget. That is IPT-controlled, and every 6 months 
starting this summer, I report to DHS leadership, and the 22 
components on the 217 projects that were mandated, that came 
out of the IPT process and the 77 high-priority technology 
investment areas that my customers had--and I report as to 
cost, schedule, and technology readiness level to insert into 
their acquisition programs so that I meet their requirements 
and don't put their capability enhancement at risk.
    And that is how we did this in Navy, and I take that very 
personally responsible, and I do that--takes about 3 days, 12-
hour days, of each project manager giving me a green light, red 
light, yellow light as to cost, schedule and TRL.
    Finally, in innovation, this is more of a roll of the dice. 
This is Nike: Just do it. Success or failure. Do you have the 
capability, and is it exploitable? And so the metric there will 
be self-evident. Did it work? And if it did not work, where did 
it fall short? And what do I need to do in basic research or in 
spiral development to get me that capability in the second 
round?
    So three different sets of metrics. I will clarify those in 
follow-on reports. But that is how we do business.
    Mr. Langevin. Well, I would appreciate that in the follow-
on reports. We really do need performance standards, and I 
think that is vital to the success of S&T as we go forward and 
look forward to your continuing to work on that and other 
things. I know you have a lot on your plate, and it is a tall 
order. In many ways I don't envy you. I do know that you are up 
to the challenge, though, Secretary, and we appreciate the 
great work that you do. And there is no one that is a bigger 
fan of yours on the Hill than me, and I appreciate your passion 
for the job at S&T.
    Again, I know that we have a lot of work ahead of us to do, 
and we have highlighted a lot of the challenges and the gaps 
today, but I also know that there are good things going on at 
S&T, and I applaud you for your work and your team behind you, 
and I look forward to our continuing to work together.
    So I want to thank you for your valuable testimony; the 
Members for their questions, of course. And the members of the 
subcommittee, myself included, actually may have--well, have 
some additional questions for you, and I would ask that you 
respond expeditiously in writing to those questions.
    Mr. Langevin. Having no further business before the 
subcommittee, this subcommittee now stands adjourned. Thank 
you.
    Mr. Cohen. Mr. Chairman, thank you for your leadership, and 
I compliment the staff on both sides of the aisle for their 
very professional performance and working with our people. So 
thank you so much.
    Mr. Langevin. You are welcome.
    Thank you Mr. Secretary.
    The subcommittee stands adjourned.
    [Whereupon, at 3:30 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
